<html>
<title> - INNOVATION IN THE AGING NETWORK: THE FUTURE OF SOCIAL SERVICES FOR OLDER AMERICANS</title>
<body><pre>[Senate Hearing 109-560]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 109-560
 
                    INNOVATION IN THE AGING NETWORK:
           THE FUTURE OF SOCIAL SERVICES FOR OLDER AMERICANS

=======================================================================


                                HEARING

                               before the

                       SPECIAL COMMITTEE ON AGING
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             WASHINGTON, DC

                               __________

                              MAY 3, 2006

                               __________

                           Serial No. 109-22

         Printed for the use of the Special Committee on Aging





                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

28-923 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




                       SPECIAL COMMITTEE ON AGING

                     GORDON SMITH, Oregon, Chairman
RICHARD SHELBY, Alabama              HERB KOHL, Wisconsin
SUSAN COLLINS, Maine                 JAMES M. JEFFORDS, Vermont
JAMES M. TALENT, Missouri            RON WYDEN, Oregon
ELIZABETH DOLE, North Carolina       BLANCHE L. LINCOLN, Arkansas
MEL MARTINEZ, Florida                EVAN BAYH, Indiana
LARRY E. CRAIG, Idaho                THOMAS R. CARPER, Delaware
RICK SANTORUM, Pennsylvania          BILL NELSON, Florida
CONRAD BURNS, Montana                HILLARY RODHAM CLINTON, New York
LAMAR ALEXANDER, Tennessee           KEN SALAZAR, Colorado
JIM DEMINT, South Carolina
                    Catherine Finley, Staff Director
               Julie Cohen, Ranking Member Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator Gordon Smith........................     1
Prepared Statement of Senator Herb Kohl..........................   403
Prepared Statement of Senator Ken Salazar........................   403

                                Panel I

Neal E. Lane, director, New York State Office for the Aging, 
  Albany, NY.....................................................     4
Gayla S. Woody, director, Aging Program Administrator, Centralina 
  Council of Governments Area Agency on Aging, Charlotte, NC.....   376
Pamela B. Smith, director, Aging and Independence Services, San 
  Diego County, San Diego, CA....................................   389

                                APPENDIX

Questions from Senator Kohl for Gayla S. Woody...................   405
Questions from Senator Kohl for Pamela B. Smith..................   406

                                 (iii)




  INNOVATION IN THE AGING NETWORK: THE FUTURE OF SOCIAL SERVICES FOR 
                            OLDER AMERICANS

                              ------------



                         WEDNESDAY, MAY 3, 2006

                                       U.S. Senate,
                                Special Committee on Aging,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room SD-106, Dirksen Senate Office Building, Hon. Gordon Smith 
(chairman of the committee) presiding.
    Present: Senators Smith, Carper, and Salazar.

      OPENING STATEMENT OF SENATOR GORDON SMITH, CHAIRMAN

    The Chairman. Good morning, ladies and gentlemen. We 
welcome you all to this hearing of the Senate Special Committee 
on Aging and we appreciate all of your attendance, especially 
our witnesses.
    Senator Kohl, the ranking member, is detained in an 
Appropriations meeting that he cannot miss and will be joining 
us, we hope, before too long and when he does, we will turn to 
him for his statement and questions. But I propose, in the 
interest of time and out of respect for your schedules, that we 
will proceed. So I will begin with my statement and then we 
will go to our witnesses.
    Today's hearing will focus on the need for the Aging 
Network to prepare and evolve for the coming retirement of the 
baby boom generation. We will also explore the upcoming 
reauthorization of the Older Americans Act and the need to 
support efforts within the act that prepare social services for 
future older Americans.
    To meet the diverse needs of the growing numbers of older 
persons in the United States, the Older Americans Act of 1965 
created the primary vehicle for organizing, coordinating and 
providing services to older Americans and their families. This 
system, now known as the National Aging Network, is a national 
network of Federal, state and local agencies created to plan 
and provide services that enable older adults to live 
independently in their homes and in their communities. Today 
this network includes 56 state units, 655 area agencies known 
as AAAs, and 243 Native American aging programs, over 29,000 
service providers and thousands, truly thousands of volunteers.
    As we have discussed many times in this committee, the 
share of the population that is over the age of 65 is projected 
and it is an inescapable fact that it will increase 
significantly in the coming years. Due to the dramatic 
increases in life expectancy, the 77 million Americans born in 
the United States during the boom years of 1946 to 1964 can 
expect, on average, to live to the age of 83. However, many 
will live well into their 90's.
    Baby boomers represent the largest single sustained growth 
of the population in the history of the United States. Their 
mass alone has had an enormous impact on the national psyche, 
the political arena, and in our social fabric. From the youth 
culture, they created in the 1960's and 1970's to the dual-
income households of the 1980's and the 1990's, this generation 
has reinterpreted each successive stage of life.
    As the oldest of the baby boomers approach later adulthood, 
they again are poised to redefine the next stage of life, which 
is retirement. This redefinition will pressure social services 
and the Aging Network into needed change. To prepare, many 
aging organizations are currently attempting to become more 
mobile, technologically advanced, and individualized. Other 
organizations are considering uprooting their centers for 
services strategy and creating livable communities for aging. 
This model hinges on engaging seniors on the community level 
and inspiring collaboratives to enhance civic engagement and 
create communities that help seniors stay independent, 
involved, and healthy.
    We must work to strengthen the Aging Network to maximize 
effectiveness through coordination. To do this, Federal, state 
and most importantly, local level aging service providers will 
need to begin to view themselves not as separate sectors that 
occasionally overlap but as integral parts of a unified 
approach to senior services. We also need to support efforts to 
enhance healthy aging with fewer health dollars.
    I applaud the Administration on Aging for initiating 
conversations about how this can be done. While funding 
concerns have been raised regarding the Choices for 
Independence proposal, I believe the Administration on Aging 
should be applauded for bringing this issue to the table.
    Baby boomers are more knowledgeable about health and health 
resources than prior generations. Baby boomers also have high 
expectations that they will remain healthy and have invested in 
nutritional plans and exercise programs. They also use the 
Internet to find information, to ensure they are up to date on 
the most recent health discoveries. To respond to these 
behaviors, the Aging Network may need to adjust, to provide 
services that are less focused on acute problems and more 
focussed on healthy aging and preventative services.
    Finally, we must promote civic engagement to benefit baby 
boomers, as well as their communities. Studies show that older 
volunteers live longer and healthier than those who are not so 
engaged with their communities. A Business Week report of June 
27, 2005 found that with increased baby boomer interest in 
working longer, ``The financing problems of Social Security and 
Medicare will be easier to resolve. Increased productivity of 
older Americans and higher labor force participation could add 
9 percent to the gross domestic product by 2045.''
    Today we will hear from a director of a very large AAA 
whose has maximized the impact of her funds by providing 
opportunities for healthy older adults to contribute to their 
communities. It is important to note that seniors who are 
involved in civic engagement and activities often volunteer in 
Older Americans Act programs and also serve vulnerable 
populations in innovative ways. The reauthorization of the 
Older Americans Act represents an exciting opportunity to 
modernize the Aging Network for the baby boomer population and 
to create opportunities to integrate newer aging concepts, like 
civic engagement, into the Aging Network. I urge Congress to 
move forward in a timely fashion with the reauthorization of 
the Older Americans Act.
    Again I thank all of our witnesses who are here. They are 
going to share with us some tremendous ideas and hopefully help 
Congress have a sufficient light to do right by the 
reauthorization of the Older Americans Act.
    Our first witness is Mr. Neal Lane. He is the director of 
the New York State Office for the Aging. Neal joined the New 
York State Office for the Aging as executive deputy director in 
May of 2001 and was appointed director in May of 2005. Mr. Lane 
has been working for the past several years on an initiative in 
New York called Project 2015. This project is New York's 
primary planning tool used to prepare New York's aging services 
for the baby boomer generation.
    Next, after him, we will hear from Miss Gayla Woody, who is 
the aging program administrator for the Centralina Council of 
Governments Area Agency on Aging in North Carolina. Miss 
Woody's testimony will focus on the projects she oversees that 
are preparing nine counties in North Carolina for retirement of 
the baby boomers and her work with a small county to adapt 
services to reflect boomer preferences.
    Finally, we will hear from Miss Pam Smith. She is the 
director of the Aging and Independence Services in San Diego 
County, CA. Miss Smith is not my sister, I do not think, but we 
are all related somehow. She is going to discuss civic 
engagement opportunities for seniors. She has created 
approximately 20 civic engagement programs, which complement 
many Older Americans Act programs and involve other government 
and private entities.
    I also understand, Pam, that you are the mother of Alex 
Smith. Alex Smith was an All-American quarterback at the 
University of Utah, who is now the quarterback of the San 
Francisco Forty-Niners. I was glad to see Alex go to the pro 
level because he beat my alma mater, BYU, pretty much every 
time he played them. But he is a terrific young man and it is 
exciting to be able to root for him more enthusiastically.
    So Mr. Lane, we will start with you. Tell us about New 
York.

STATEMENT OF NEAL E. LANE, DIRECTOR, NEW YORK STATE OFFICE FOR 
                     THE AGING, ALBANY, NY

    Mr. Lane. Thank you, Chairman Smith. I do want to begin by 
saying that the Special Committee has had a phenomenal impact 
on the quality of life for older Americans throughout its life 
and I must say that you continue in that honorable tradition 
and I thank you for that.
    My name is Neal Lane. I am director of the New York State 
Office for the Aging and I have spent some nearly 40 years in 
various capacities in the field of aging and I must say, saying 
that out loud is a bit startling to me.
    I am particularly pleased to be here to talk about the 
aging of the baby boomers. There are, as you noted, 78 million 
baby boomers in the United States. Twenty-one million of them 
have now reached early retirement age. This year the oldest 
boomer turns 60 and that would be me. In 18 years, by the year 
2024, the entire boomer cohort will reach the age of 60 or 
over. I was recently on Long Island, where I was reminded that 
several of our communities in New York State, a number of them, 
in fact, already have populations that exceed 40 percent aged 
60 or over cohorts.
    The boomers will change the face of old age. We need to 
take a close look at who this population is because of their 
characteristics and their numbers. We need to look at this 
population differently. We have to take a look at our 
communities differently.
    This is our bonus generation. This group should be taking a 
leadership role in our community and I am here to tell you 
today about the innovative and successful approach led by 
Governor Pataki that we took in New York State to begin to set 
this in motion.
    This approach is called Project 2015. It is a future-based 
strategic planning process to prepare for the impact of dynamic 
population change. I found this approach a transforming 
experience for me personally and for the Aging Network. It is 
changing the way we look at aging issues and how we consider 
the place of our older people within our communities.
    Think about who we traditionally invite to tackling issues 
of aging. Do we regularly invite the business community, the 
transportation community, the homeland security network, the 
arts community, and many other nonaging disciplines that have a 
stake, whether they know it or not, in the challenges and the 
opportunities presented by the upcoming group of older people? 
Or do we typically turn only to the experts in the aging world, 
both to identify and define the problems and the issues and 
then how to address those issues? We then ask the other 
disciplines to adapt and accept our view of the world. We 
typically think about the older population as they exist 
separately and apart from the rest of the community.
    In Project 2015 we made a paradigm shift and we did this in 
two ways. First, we expanded what we looked at. We did this by 
saying yes, we do need to look at the impact of increasing 
numbers of elders, the increasing longevity of elders, and the 
proportional shift between elders and the younger populations, 
but we expanded our analysis in New York to include several 
other major demographic trends that are profoundly shaping the 
diverse nature of our communities and that part having a 
significant impact on all of our residents.
    Most notably, these trends are immigration and migration 
patterns, our changing family structures, increasing numbers of 
people with disabilities and an increasing racially and 
ethnically diverse population.
    Looking at the impact of the aging of the baby boomers 
together with the increasing elements of diversity reflects the 
complexity and the powerful population changes that are under 
way. This impact is interactive, it is dynamic, and it has an 
overall effect on our families across all age groups, across 
all population groups, across all community sectors and 
ultimately, the effect on the global well-being of our 
communities.
    For our second paradigm shift we expanded who would be 
involved in doing this looking, who was brought to the table to 
understand and plan for the impact of these changes. Project 
2015 went beyond convening the human service agencies but was 
used to bring 36 very diverse state cabinet-level agencies 
together and, as a cohesive entity, go through this future-
oriented process to prepare for both the aging and the 
increasing aspects of diversity that is characterizing our 
communities.
    Project 2015 resulted in tangible outcomes. One major 
result was that each of these state agencies concluded and 
asserted that they will need to optimize the fit between the 
goods and services provided by government and the diverse set 
of consumers who use those goods and services and they 
identified the steps to do this. Project 2015 has resulted in 
modifications to existing services and products, as well as the 
development of responsive programs.
    I will conclude by simply saying this has been an effort 
led by the Aging Network and we find ourselves with a unique 
opportunity at this time to bring others to the table, to think 
about our communities, to think about our populations, and I 
would conclude by saying Project 2015 again has been 
transforming. It is all about how we think about our families, 
how we think of our elders as a vital community resource, and 
how we respond to all our residents across all our community 
sectors. This is a direct result of Project 2015 and I am 
convinced this change would not have happened had we not taken 
the approach we did.
    Thank you for inviting me here today and I will look 
forward to any questions you might have.
    [The prepared statement of Mr. Lane follows:]
    [GRAPHIC] [TIFF OMITTED] 28923.001
    
    [GRAPHIC] [TIFF OMITTED] 28923.002
    
    [GRAPHIC] [TIFF OMITTED] 28923.003
    
    [GRAPHIC] [TIFF OMITTED] 28923.004
    
    [GRAPHIC] [TIFF OMITTED] 28923.005
    
    [GRAPHIC] [TIFF OMITTED] 28923.006
    
    [GRAPHIC] [TIFF OMITTED] 28923.007
    
    [GRAPHIC] [TIFF OMITTED] 28923.008
    
    [GRAPHIC] [TIFF OMITTED] 28923.009
    
    [GRAPHIC] [TIFF OMITTED] 28923.010
    
    [GRAPHIC] [TIFF OMITTED] 28923.011
    
    [GRAPHIC] [TIFF OMITTED] 28923.012
    
    [GRAPHIC] [TIFF OMITTED] 28923.013
    
    [GRAPHIC] [TIFF OMITTED] 28923.014
    
    [GRAPHIC] [TIFF OMITTED] 28923.015
    
    [GRAPHIC] [TIFF OMITTED] 28923.016
    
    [GRAPHIC] [TIFF OMITTED] 28923.017
    
    [GRAPHIC] [TIFF OMITTED] 28923.018
    
    [GRAPHIC] [TIFF OMITTED] 28923.019
    
    [GRAPHIC] [TIFF OMITTED] 28923.020
    
    [GRAPHIC] [TIFF OMITTED] 28923.021
    
    [GRAPHIC] [TIFF OMITTED] 28923.022
    
    [GRAPHIC] [TIFF OMITTED] 28923.023
    
    [GRAPHIC] [TIFF OMITTED] 28923.024
    
    [GRAPHIC] [TIFF OMITTED] 28923.025
    
    [GRAPHIC] [TIFF OMITTED] 28923.026
    
    [GRAPHIC] [TIFF OMITTED] 28923.027
    
    [GRAPHIC] [TIFF OMITTED] 28923.028
    
    [GRAPHIC] [TIFF OMITTED] 28923.029
    
    [GRAPHIC] [TIFF OMITTED] 28923.030
    
    [GRAPHIC] [TIFF OMITTED] 28923.031
    
    [GRAPHIC] [TIFF OMITTED] 28923.032
    
    [GRAPHIC] [TIFF OMITTED] 28923.033
    
    [GRAPHIC] [TIFF OMITTED] 28923.034
    
    [GRAPHIC] [TIFF OMITTED] 28923.035
    
    [GRAPHIC] [TIFF OMITTED] 28923.036
    
    [GRAPHIC] [TIFF OMITTED] 28923.037
    
    [GRAPHIC] [TIFF OMITTED] 28923.038
    
    [GRAPHIC] [TIFF OMITTED] 28923.039
    
    [GRAPHIC] [TIFF OMITTED] 28923.040
    
    [GRAPHIC] [TIFF OMITTED] 28923.041
    
    [GRAPHIC] [TIFF OMITTED] 28923.042
    
    [GRAPHIC] [TIFF OMITTED] 28923.043
    
    [GRAPHIC] [TIFF OMITTED] 28923.044
    
    [GRAPHIC] [TIFF OMITTED] 28923.045
    
    [GRAPHIC] [TIFF OMITTED] 28923.046
    
    [GRAPHIC] [TIFF OMITTED] 28923.047
    
    [GRAPHIC] [TIFF OMITTED] 28923.048
    
    [GRAPHIC] [TIFF OMITTED] 28923.049
    
    [GRAPHIC] [TIFF OMITTED] 28923.050
    
    [GRAPHIC] [TIFF OMITTED] 28923.051
    
    [GRAPHIC] [TIFF OMITTED] 28923.052
    
    [GRAPHIC] [TIFF OMITTED] 28923.053
    
    [GRAPHIC] [TIFF OMITTED] 28923.054
    
    [GRAPHIC] [TIFF OMITTED] 28923.055
    
    [GRAPHIC] [TIFF OMITTED] 28923.056
    
    [GRAPHIC] [TIFF OMITTED] 28923.057
    
    [GRAPHIC] [TIFF OMITTED] 28923.058
    
    [GRAPHIC] [TIFF OMITTED] 28923.059
    
    [GRAPHIC] [TIFF OMITTED] 28923.060
    
    [GRAPHIC] [TIFF OMITTED] 28923.061
    
    [GRAPHIC] [TIFF OMITTED] 28923.062
    
    [GRAPHIC] [TIFF OMITTED] 28923.063
    
    [GRAPHIC] [TIFF OMITTED] 28923.064
    
    [GRAPHIC] [TIFF OMITTED] 28923.065
    
    [GRAPHIC] [TIFF OMITTED] 28923.066
    
    [GRAPHIC] [TIFF OMITTED] 28923.067
    
    [GRAPHIC] [TIFF OMITTED] 28923.068
    
    [GRAPHIC] [TIFF OMITTED] 28923.069
    
    [GRAPHIC] [TIFF OMITTED] 28923.070
    
    [GRAPHIC] [TIFF OMITTED] 28923.071
    
    [GRAPHIC] [TIFF OMITTED] 28923.072
    
    [GRAPHIC] [TIFF OMITTED] 28923.073
    
    [GRAPHIC] [TIFF OMITTED] 28923.074
    
    [GRAPHIC] [TIFF OMITTED] 28923.075
    
    [GRAPHIC] [TIFF OMITTED] 28923.076
    
    [GRAPHIC] [TIFF OMITTED] 28923.077
    
    [GRAPHIC] [TIFF OMITTED] 28923.078
    
    [GRAPHIC] [TIFF OMITTED] 28923.079
    
    [GRAPHIC] [TIFF OMITTED] 28923.080
    
    [GRAPHIC] [TIFF OMITTED] 28923.081
    
    [GRAPHIC] [TIFF OMITTED] 28923.082
    
    [GRAPHIC] [TIFF OMITTED] 28923.083
    
    [GRAPHIC] [TIFF OMITTED] 28923.084
    
    [GRAPHIC] [TIFF OMITTED] 28923.085
    
    [GRAPHIC] [TIFF OMITTED] 28923.086
    
    [GRAPHIC] [TIFF OMITTED] 28923.087
    
    [GRAPHIC] [TIFF OMITTED] 28923.088
    
    [GRAPHIC] [TIFF OMITTED] 28923.089
    
    [GRAPHIC] [TIFF OMITTED] 28923.090
    
    [GRAPHIC] [TIFF OMITTED] 28923.091
    
    [GRAPHIC] [TIFF OMITTED] 28923.092
    
    [GRAPHIC] [TIFF OMITTED] 28923.093
    
    [GRAPHIC] [TIFF OMITTED] 28923.094
    
    [GRAPHIC] [TIFF OMITTED] 28923.095
    
    [GRAPHIC] [TIFF OMITTED] 28923.096
    
    [GRAPHIC] [TIFF OMITTED] 28923.097
    
    [GRAPHIC] [TIFF OMITTED] 28923.098
    
    [GRAPHIC] [TIFF OMITTED] 28923.099
    
    [GRAPHIC] [TIFF OMITTED] 28923.100
    
    [GRAPHIC] [TIFF OMITTED] 28923.101
    
    [GRAPHIC] [TIFF OMITTED] 28923.102
    
    [GRAPHIC] [TIFF OMITTED] 28923.103
    
    [GRAPHIC] [TIFF OMITTED] 28923.104
    
    [GRAPHIC] [TIFF OMITTED] 28923.105
    
    [GRAPHIC] [TIFF OMITTED] 28923.106
    
    [GRAPHIC] [TIFF OMITTED] 28923.107
    
    [GRAPHIC] [TIFF OMITTED] 28923.108
    
    [GRAPHIC] [TIFF OMITTED] 28923.109
    
    [GRAPHIC] [TIFF OMITTED] 28923.110
    
    [GRAPHIC] [TIFF OMITTED] 28923.111
    
    [GRAPHIC] [TIFF OMITTED] 28923.112
    
    [GRAPHIC] [TIFF OMITTED] 28923.113
    
    [GRAPHIC] [TIFF OMITTED] 28923.114
    
    [GRAPHIC] [TIFF OMITTED] 28923.115
    
    [GRAPHIC] [TIFF OMITTED] 28923.116
    
    [GRAPHIC] [TIFF OMITTED] 28923.117
    
    [GRAPHIC] [TIFF OMITTED] 28923.118
    
    [GRAPHIC] [TIFF OMITTED] 28923.119
    
    [GRAPHIC] [TIFF OMITTED] 28923.120
    
    [GRAPHIC] [TIFF OMITTED] 28923.121
    
    [GRAPHIC] [TIFF OMITTED] 28923.122
    
    [GRAPHIC] [TIFF OMITTED] 28923.123
    
    [GRAPHIC] [TIFF OMITTED] 28923.124
    
    [GRAPHIC] [TIFF OMITTED] 28923.125
    
    [GRAPHIC] [TIFF OMITTED] 28923.126
    
    [GRAPHIC] [TIFF OMITTED] 28923.127
    
    [GRAPHIC] [TIFF OMITTED] 28923.128
    
    [GRAPHIC] [TIFF OMITTED] 28923.129
    
    [GRAPHIC] [TIFF OMITTED] 28923.130
    
    [GRAPHIC] [TIFF OMITTED] 28923.131
    
    [GRAPHIC] [TIFF OMITTED] 28923.132
    
    [GRAPHIC] [TIFF OMITTED] 28923.133
    
    [GRAPHIC] [TIFF OMITTED] 28923.134
    
    [GRAPHIC] [TIFF OMITTED] 28923.135
    
    [GRAPHIC] [TIFF OMITTED] 28923.136
    
    [GRAPHIC] [TIFF OMITTED] 28923.137
    
    [GRAPHIC] [TIFF OMITTED] 28923.138
    
    [GRAPHIC] [TIFF OMITTED] 28923.139
    
    [GRAPHIC] [TIFF OMITTED] 28923.140
    
    [GRAPHIC] [TIFF OMITTED] 28923.141
    
    [GRAPHIC] [TIFF OMITTED] 28923.142
    
    [GRAPHIC] [TIFF OMITTED] 28923.143
    
    [GRAPHIC] [TIFF OMITTED] 28923.144
    
    [GRAPHIC] [TIFF OMITTED] 28923.145
    
    [GRAPHIC] [TIFF OMITTED] 28923.146
    
    [GRAPHIC] [TIFF OMITTED] 28923.147
    
    [GRAPHIC] [TIFF OMITTED] 28923.148
    
    [GRAPHIC] [TIFF OMITTED] 28923.149
    
    [GRAPHIC] [TIFF OMITTED] 28923.150
    
    [GRAPHIC] [TIFF OMITTED] 28923.151
    
    [GRAPHIC] [TIFF OMITTED] 28923.152
    
    [GRAPHIC] [TIFF OMITTED] 28923.153
    
    [GRAPHIC] [TIFF OMITTED] 28923.154
    
    [GRAPHIC] [TIFF OMITTED] 28923.155
    
    [GRAPHIC] [TIFF OMITTED] 28923.156
    
    [GRAPHIC] [TIFF OMITTED] 28923.157
    
    [GRAPHIC] [TIFF OMITTED] 28923.158
    
    [GRAPHIC] [TIFF OMITTED] 28923.159
    
    [GRAPHIC] [TIFF OMITTED] 28923.160
    
    [GRAPHIC] [TIFF OMITTED] 28923.161
    
    [GRAPHIC] [TIFF OMITTED] 28923.162
    
    [GRAPHIC] [TIFF OMITTED] 28923.163
    
    [GRAPHIC] [TIFF OMITTED] 28923.164
    
    [GRAPHIC] [TIFF OMITTED] 28923.165
    
    [GRAPHIC] [TIFF OMITTED] 28923.166
    
    [GRAPHIC] [TIFF OMITTED] 28923.167
    
    [GRAPHIC] [TIFF OMITTED] 28923.168
    
    [GRAPHIC] [TIFF OMITTED] 28923.169
    
    [GRAPHIC] [TIFF OMITTED] 28923.170
    
    [GRAPHIC] [TIFF OMITTED] 28923.171
    
    [GRAPHIC] [TIFF OMITTED] 28923.172
    
    [GRAPHIC] [TIFF OMITTED] 28923.173
    
    [GRAPHIC] [TIFF OMITTED] 28923.174
    
    [GRAPHIC] [TIFF OMITTED] 28923.175
    
    [GRAPHIC] [TIFF OMITTED] 28923.176
    
    [GRAPHIC] [TIFF OMITTED] 28923.177
    
    [GRAPHIC] [TIFF OMITTED] 28923.178
    
    [GRAPHIC] [TIFF OMITTED] 28923.179
    
    [GRAPHIC] [TIFF OMITTED] 28923.180
    
    [GRAPHIC] [TIFF OMITTED] 28923.181
    
    [GRAPHIC] [TIFF OMITTED] 28923.182
    
    [GRAPHIC] [TIFF OMITTED] 28923.183
    
    [GRAPHIC] [TIFF OMITTED] 28923.184
    
    [GRAPHIC] [TIFF OMITTED] 28923.185
    
    [GRAPHIC] [TIFF OMITTED] 28923.186
    
    [GRAPHIC] [TIFF OMITTED] 28923.187
    
    [GRAPHIC] [TIFF OMITTED] 28923.188
    
    [GRAPHIC] [TIFF OMITTED] 28923.189
    
    [GRAPHIC] [TIFF OMITTED] 28923.190
    
    [GRAPHIC] [TIFF OMITTED] 28923.191
    
    [GRAPHIC] [TIFF OMITTED] 28923.192
    
    [GRAPHIC] [TIFF OMITTED] 28923.193
    
    [GRAPHIC] [TIFF OMITTED] 28923.194
    
    [GRAPHIC] [TIFF OMITTED] 28923.195
    
    [GRAPHIC] [TIFF OMITTED] 28923.196
    
    [GRAPHIC] [TIFF OMITTED] 28923.197
    
    [GRAPHIC] [TIFF OMITTED] 28923.198
    
    [GRAPHIC] [TIFF OMITTED] 28923.199
    
    [GRAPHIC] [TIFF OMITTED] 28923.200
    
    [GRAPHIC] [TIFF OMITTED] 28923.201
    
    [GRAPHIC] [TIFF OMITTED] 28923.202
    
    [GRAPHIC] [TIFF OMITTED] 28923.203
    
    [GRAPHIC] [TIFF OMITTED] 28923.204
    
    [GRAPHIC] [TIFF OMITTED] 28923.205
    
    [GRAPHIC] [TIFF OMITTED] 28923.206
    
    [GRAPHIC] [TIFF OMITTED] 28923.207
    
    [GRAPHIC] [TIFF OMITTED] 28923.208
    
    [GRAPHIC] [TIFF OMITTED] 28923.209
    
    [GRAPHIC] [TIFF OMITTED] 28923.210
    
    [GRAPHIC] [TIFF OMITTED] 28923.211
    
    [GRAPHIC] [TIFF OMITTED] 28923.212
    
    [GRAPHIC] [TIFF OMITTED] 28923.213
    
    [GRAPHIC] [TIFF OMITTED] 28923.214
    
    [GRAPHIC] [TIFF OMITTED] 28923.215
    
    [GRAPHIC] [TIFF OMITTED] 28923.216
    
    [GRAPHIC] [TIFF OMITTED] 28923.217
    
    [GRAPHIC] [TIFF OMITTED] 28923.218
    
    [GRAPHIC] [TIFF OMITTED] 28923.219
    
    [GRAPHIC] [TIFF OMITTED] 28923.220
    
    [GRAPHIC] [TIFF OMITTED] 28923.221
    
    [GRAPHIC] [TIFF OMITTED] 28923.222
    
    [GRAPHIC] [TIFF OMITTED] 28923.223
    
    [GRAPHIC] [TIFF OMITTED] 28923.224
    
    [GRAPHIC] [TIFF OMITTED] 28923.225
    
    [GRAPHIC] [TIFF OMITTED] 28923.226
    
    [GRAPHIC] [TIFF OMITTED] 28923.227
    
    [GRAPHIC] [TIFF OMITTED] 28923.228
    
    [GRAPHIC] [TIFF OMITTED] 28923.229
    
    [GRAPHIC] [TIFF OMITTED] 28923.230
    
    [GRAPHIC] [TIFF OMITTED] 28923.231
    
    [GRAPHIC] [TIFF OMITTED] 28923.232
    
    [GRAPHIC] [TIFF OMITTED] 28923.233
    
    [GRAPHIC] [TIFF OMITTED] 28923.234
    
    [GRAPHIC] [TIFF OMITTED] 28923.235
    
    [GRAPHIC] [TIFF OMITTED] 28923.236
    
    [GRAPHIC] [TIFF OMITTED] 28923.237
    
    [GRAPHIC] [TIFF OMITTED] 28923.238
    
    [GRAPHIC] [TIFF OMITTED] 28923.239
    
    [GRAPHIC] [TIFF OMITTED] 28923.240
    
    [GRAPHIC] [TIFF OMITTED] 28923.241
    
    [GRAPHIC] [TIFF OMITTED] 28923.242
    
    [GRAPHIC] [TIFF OMITTED] 28923.243
    
    [GRAPHIC] [TIFF OMITTED] 28923.244
    
    [GRAPHIC] [TIFF OMITTED] 28923.245
    
    [GRAPHIC] [TIFF OMITTED] 28923.246
    
    [GRAPHIC] [TIFF OMITTED] 28923.247
    
    [GRAPHIC] [TIFF OMITTED] 28923.248
    
    [GRAPHIC] [TIFF OMITTED] 28923.249
    
    [GRAPHIC] [TIFF OMITTED] 28923.250
    
    [GRAPHIC] [TIFF OMITTED] 28923.251
    
    [GRAPHIC] [TIFF OMITTED] 28923.252
    
    [GRAPHIC] [TIFF OMITTED] 28923.253
    
    [GRAPHIC] [TIFF OMITTED] 28923.254
    
    [GRAPHIC] [TIFF OMITTED] 28923.255
    
    [GRAPHIC] [TIFF OMITTED] 28923.256
    
    [GRAPHIC] [TIFF OMITTED] 28923.257
    
    [GRAPHIC] [TIFF OMITTED] 28923.258
    
    [GRAPHIC] [TIFF OMITTED] 28923.259
    
    [GRAPHIC] [TIFF OMITTED] 28923.260
    
    [GRAPHIC] [TIFF OMITTED] 28923.261
    
    [GRAPHIC] [TIFF OMITTED] 28923.262
    
    [GRAPHIC] [TIFF OMITTED] 28923.263
    
    [GRAPHIC] [TIFF OMITTED] 28923.264
    
    [GRAPHIC] [TIFF OMITTED] 28923.265
    
    [GRAPHIC] [TIFF OMITTED] 28923.266
    
    [GRAPHIC] [TIFF OMITTED] 28923.267
    
    [GRAPHIC] [TIFF OMITTED] 28923.268
    
    [GRAPHIC] [TIFF OMITTED] 28923.269
    
    [GRAPHIC] [TIFF OMITTED] 28923.270
    
    [GRAPHIC] [TIFF OMITTED] 28923.271
    
    [GRAPHIC] [TIFF OMITTED] 28923.272
    
    [GRAPHIC] [TIFF OMITTED] 28923.273
    
    [GRAPHIC] [TIFF OMITTED] 28923.274
    
    [GRAPHIC] [TIFF OMITTED] 28923.275
    
    [GRAPHIC] [TIFF OMITTED] 28923.276
    
    [GRAPHIC] [TIFF OMITTED] 28923.277
    
    [GRAPHIC] [TIFF OMITTED] 28923.278
    
    [GRAPHIC] [TIFF OMITTED] 28923.279
    
    [GRAPHIC] [TIFF OMITTED] 28923.280
    
    [GRAPHIC] [TIFF OMITTED] 28923.281
    
    [GRAPHIC] [TIFF OMITTED] 28923.282
    
    [GRAPHIC] [TIFF OMITTED] 28923.283
    
    [GRAPHIC] [TIFF OMITTED] 28923.284
    
    [GRAPHIC] [TIFF OMITTED] 28923.285
    
    [GRAPHIC] [TIFF OMITTED] 28923.286
    
    [GRAPHIC] [TIFF OMITTED] 28923.287
    
    [GRAPHIC] [TIFF OMITTED] 28923.288
    
    [GRAPHIC] [TIFF OMITTED] 28923.289
    
    [GRAPHIC] [TIFF OMITTED] 28923.290
    
    [GRAPHIC] [TIFF OMITTED] 28923.291
    
    [GRAPHIC] [TIFF OMITTED] 28923.292
    
    [GRAPHIC] [TIFF OMITTED] 28923.293
    
    [GRAPHIC] [TIFF OMITTED] 28923.294
    
    [GRAPHIC] [TIFF OMITTED] 28923.295
    
    [GRAPHIC] [TIFF OMITTED] 28923.296
    
    [GRAPHIC] [TIFF OMITTED] 28923.297
    
    [GRAPHIC] [TIFF OMITTED] 28923.298
    
    [GRAPHIC] [TIFF OMITTED] 28923.299
    
    [GRAPHIC] [TIFF OMITTED] 28923.300
    
    [GRAPHIC] [TIFF OMITTED] 28923.301
    
    [GRAPHIC] [TIFF OMITTED] 28923.302
    
    [GRAPHIC] [TIFF OMITTED] 28923.303
    
    [GRAPHIC] [TIFF OMITTED] 28923.304
    
    [GRAPHIC] [TIFF OMITTED] 28923.305
    
    [GRAPHIC] [TIFF OMITTED] 28923.306
    
    [GRAPHIC] [TIFF OMITTED] 28923.307
    
    [GRAPHIC] [TIFF OMITTED] 28923.308
    
    [GRAPHIC] [TIFF OMITTED] 28923.309
    
    [GRAPHIC] [TIFF OMITTED] 28923.310
    
    [GRAPHIC] [TIFF OMITTED] 28923.311
    
    [GRAPHIC] [TIFF OMITTED] 28923.312
    
    [GRAPHIC] [TIFF OMITTED] 28923.313
    
    [GRAPHIC] [TIFF OMITTED] 28923.314
    
    [GRAPHIC] [TIFF OMITTED] 28923.315
    
    [GRAPHIC] [TIFF OMITTED] 28923.316
    
    [GRAPHIC] [TIFF OMITTED] 28923.317
    
    [GRAPHIC] [TIFF OMITTED] 28923.318
    
    [GRAPHIC] [TIFF OMITTED] 28923.319
    
    [GRAPHIC] [TIFF OMITTED] 28923.320
    
    [GRAPHIC] [TIFF OMITTED] 28923.321
    
    [GRAPHIC] [TIFF OMITTED] 28923.322
    
    [GRAPHIC] [TIFF OMITTED] 28923.323
    
    [GRAPHIC] [TIFF OMITTED] 28923.324
    
    [GRAPHIC] [TIFF OMITTED] 28923.325
    
    [GRAPHIC] [TIFF OMITTED] 28923.326
    
    [GRAPHIC] [TIFF OMITTED] 28923.327
    
    [GRAPHIC] [TIFF OMITTED] 28923.328
    
    [GRAPHIC] [TIFF OMITTED] 28923.329
    
    [GRAPHIC] [TIFF OMITTED] 28923.330
    
    [GRAPHIC] [TIFF OMITTED] 28923.331
    
    [GRAPHIC] [TIFF OMITTED] 28923.332
    
    [GRAPHIC] [TIFF OMITTED] 28923.333
    
    [GRAPHIC] [TIFF OMITTED] 28923.334
    
    [GRAPHIC] [TIFF OMITTED] 28923.335
    
    [GRAPHIC] [TIFF OMITTED] 28923.336
    
    [GRAPHIC] [TIFF OMITTED] 28923.337
    
    [GRAPHIC] [TIFF OMITTED] 28923.338
    
    [GRAPHIC] [TIFF OMITTED] 28923.339
    
    [GRAPHIC] [TIFF OMITTED] 28923.340
    
    [GRAPHIC] [TIFF OMITTED] 28923.341
    
    [GRAPHIC] [TIFF OMITTED] 28923.342
    
    [GRAPHIC] [TIFF OMITTED] 28923.343
    
    [GRAPHIC] [TIFF OMITTED] 28923.344
    
    [GRAPHIC] [TIFF OMITTED] 28923.345
    
    [GRAPHIC] [TIFF OMITTED] 28923.346
    
    [GRAPHIC] [TIFF OMITTED] 28923.347
    
    [GRAPHIC] [TIFF OMITTED] 28923.348
    
    [GRAPHIC] [TIFF OMITTED] 28923.349
    
    [GRAPHIC] [TIFF OMITTED] 28923.350
    
    [GRAPHIC] [TIFF OMITTED] 28923.351
    
    [GRAPHIC] [TIFF OMITTED] 28923.352
    
    [GRAPHIC] [TIFF OMITTED] 28923.353
    
    [GRAPHIC] [TIFF OMITTED] 28923.354
    
    [GRAPHIC] [TIFF OMITTED] 28923.355
    
    [GRAPHIC] [TIFF OMITTED] 28923.356
    
    [GRAPHIC] [TIFF OMITTED] 28923.357
    
    [GRAPHIC] [TIFF OMITTED] 28923.358
    
    [GRAPHIC] [TIFF OMITTED] 28923.359
    
    [GRAPHIC] [TIFF OMITTED] 28923.360
    
    [GRAPHIC] [TIFF OMITTED] 28923.361
    
    [GRAPHIC] [TIFF OMITTED] 28923.362
    
    [GRAPHIC] [TIFF OMITTED] 28923.363
    
    [GRAPHIC] [TIFF OMITTED] 28923.364
    
    [GRAPHIC] [TIFF OMITTED] 28923.365
    
    [GRAPHIC] [TIFF OMITTED] 28923.366
    
    [GRAPHIC] [TIFF OMITTED] 28923.367
    
    [GRAPHIC] [TIFF OMITTED] 28923.368
    
    [GRAPHIC] [TIFF OMITTED] 28923.369
    
    The Chairman. Thank you very much, Neal. I am curious. You 
mentioned you reached out to the arts community and others. 
Have they had some good ideas to be helpful in the quality of 
life for seniors?
    Mr. Lane. Absolutely. It is important to frame this a bit 
because we in the first instance worked with the cabinet 
agencies and the arts are clearly included in that--parks and 
taxation, state education, and the like. The approach we took 
was not to say you need to do this per se and you need to do it 
this way.
    The Governor told each of his cabinet agencies this 
demographic, this profound demographic shift is upon us and you 
need to tell me how this will affect your business, your 
business. So each one of those has developed a plan to look at 
how their business will change and how they will be part of 
building vital communities in New York State, using the elder 
resource.
    The Chairman. You talked about the diversity of the baby 
boom generation. I am wondering whether they are Hispanic, 
African-American, ethnic in some way or different groups.
    Mr. Lane. Yes.
    The Chairman. What are the commonalities that they have, 
regardless of their hyphenation, and what are the differences 
because of their hyphenations?
    Mr. Lane. That is a very difficult question, because of the 
diversity. But if I may risk or hazard an opinion, that would 
be that--and I think it is borne out by some studies--I think a 
large percentage of this bonus generation, the baby boom 
generation, has a tremendous interest in giving back to the 
community and doing things beyond what they have done in the 
past to be supportive of their communities and engage in their 
communities.
    I think the trick is, of course, that it would be different 
what I will want to do than what Gayla or Pam will want to do 
and we do not have any real mechanisms to have Neal help to 
figure that out or help Gayla figure that out.
    Second, the not-for-profit sector and the other sectors 
that exist where the bonus generation could be well used is 
really not ready or has not made the transition yet, as has the 
workplace, to really understand how they can benefit and 
utilize this. It is really just not acceptable to offer elders 
the opportunity to lick envelopes and take names. It has to be 
considerably more than that.
    The Chairman. Yes. The planning New York is doing is 
commendable. Do you find other states looking to your model? 
Are you cooperating with other states?
    Mr. Lane. Yes, indeed. We have had a large number of 
inquiries and to that end, we have begun to form a national 
collaborative to look at taking Project 2015-like planning to 
other states who have an interest and we have 19 national 
partners that are going to meet in May in Albany to look at how 
we can take this to a national scale.
    The Chairman. Very good. We applaud you and commend you and 
encourage you to keep it up.
    Mr. Lane. Thank you, sir, and indeed I will.
    The Chairman. Gayla, take it away.

     STATEMENT OF GAYLA S. WOODY, DIRECTOR, AGING PROGRAM 
ADMINISTRATOR, CENTRALINA COUNCIL OF GOVERNMENTS AREA AGENCY ON 
                      AGING, CHARLOTTE, NC

    Ms. Woody. Good morning, Chairman Smith. Thank you so much 
for this opportunity to talk about how our community is 
planning for the demographic changes facing the nation. I am 
Gayla Woody and I am the aging program administrator of 
Centralina Area Agency on Aging. My region covers nine counties 
in North Carolina. This is the largest region and includes the 
city of Charlotte.
    While the counties in my region range from a large 
metropolitan area to a very small rural county, they share at 
least one characteristic--the aging of our nation's older 
adults; in particular, the demographic cohort known as baby 
boomers and the fastest growing population in the country.
    While the first wave of baby boomers turns 60 this year, we 
cannot afford to sit still and wait. To ensure that America's 
communities are prepared to meet the needs of today's and 
tomorrow's older adults, preparation and planning must start 
now.
    I am very proud to report that Mecklenburg County, which 
includes the city of Charlotte, has refused to just sit and 
wait and see how the aging of the baby boomers will impact the 
community. In order to plan accordingly, we convened a broad-
based group to examine the critical issues and launch the 
Status of Seniors Initiative to develop strategies to assist 
the community in responding.
    After 4 years of data-gathering, research, analysis and 
strategic planning, Status of Seniors has completed three 
reports looking at the impact of the aging of the baby bombers 
on our community. Our vision is a senior-friendly community 
that values dignity and independence for all older adults.
    We have several projects under way and like North Carolina, 
we have tried to go outside that traditional framework. One of 
the projects is a partnership with the Charlotte Police 
Department to implement a training program for new police 
officers called First Responders. We are partnering with the 
Chamber of Commerce, a local builders association, the 
Charlotte Planning Commission and a metropolitan planning 
organization to engage in discussions to address the physical 
environment in our community, like sidewalks, housing, 
transportation. Our community college and the local Council on 
Aging are co-hosting a conference this month entitled ``Can 
Businesses Boom as Boomers Retire?''
    While I was writing these remarks, our local government 
television channel ran a 30-minute program about the Status of 
Seniors Report and what we can expect from the aging of the 
boomers. It is important to note that other than a will and 
community volunteers, we have very little in the way of funds 
for this initiative.
    Senator Dole's home county of Rowan is also one of my 
counties. In 2003 we began working together with a project 
called Rowan LIFE, Life Improvement for Everyone. Rowan LIFE 
has completed their first report and they have a few things 
under way, also. Partnering with the United Way, they are 
looking at a 211 countywide information and referral system.
    Their second project is a collaborative to look at a 
uniform and seamless service delivery system. Because of the 
planning that they have done with Rowan LIFE, they have 
positioned their community for a large, rural health grant that 
will bring a couple of hundred thousand dollars toward that 
project. Another part of that project is to help manage chronic 
illness for improved quality of life for older adults, and one 
of the things that we are going to be doing with that project 
is partnering some of our health and wellness programs, again 
to try to merge with that management of chronic illness.
    One of the smallest counties in my region, Lincoln County, 
was the only county in North Carolina that did not have a 
congregate meal program. So out of a conversation about the 
preferences of baby boomers, the restaurant voucher program was 
born. The program provides a variety of opportunities for 
participants to attend programs on healthy living where they 
receive meal vouchers to use in participating local 
restaurants. Boomers like to have choice.
    One of our other small counties, Cabarrus, has a pilot 
project for consumer-directed care. Again for baby boomers, 
choice is the important word. The program allows participants 
to customize services to their individual needs.
    I would urge Congress to consider adding resources to the 
Older Americans Act to, encourage and support AAAs to take on 
this community planning role. In the long run, this is the most 
cost-effective and rational way to brace ourselves for the 
boomers and their effect on our nation, and this was ranked 
tenth by the 2005 White House Conference on Aging.
    North Carolina's State Unit on Aging has also identified 
community planning as a high priority and with limited 
resources, we are trying to identify strategies for our Aging 
Network to adopt.
    Aging impacts all parts of life. It is critical that we 
educate our communities, collaborate, work with nontraditional 
players and aggressively plan to meet the challenges it will 
bring with it. The Older Americans Act must be modernized to 
help communities prepare for the boomers. Too much is at stake 
to ignore the age wave and too much will be lost if we delay.
    Thank you for the opportunity to testify before you today.
    [The prepared statement of Ms. Woody follows:]
    [GRAPHIC] [TIFF OMITTED] 28923.370
    
    [GRAPHIC] [TIFF OMITTED] 28923.371
    
    [GRAPHIC] [TIFF OMITTED] 28923.372
    
    [GRAPHIC] [TIFF OMITTED] 28923.373
    
    [GRAPHIC] [TIFF OMITTED] 28923.374
    
    [GRAPHIC] [TIFF OMITTED] 28923.375
    
    [GRAPHIC] [TIFF OMITTED] 28923.376
    
    [GRAPHIC] [TIFF OMITTED] 28923.377
    
    [GRAPHIC] [TIFF OMITTED] 28923.378
    
    [GRAPHIC] [TIFF OMITTED] 28923.379
    
    The Chairman. I assume you find that most of the 
communities, they are aware of the aging population, they are 
anxious to provide these senior-friendly or retirement-friendly 
communities. Do you find any that are unaware of this?
    Ms. Woody. No, but it is like Mr. Lane was saying, that the 
Aging Network, those of us that are in the network, we know, 
but one of the challenges that we have had in Mecklenburg 
County is figuring out how to get that message to those outside 
the aging network. It took us 4 years to get the Chamber of 
Commerce to recognize that the boomers were going to impact how 
they do business and what it meant to them.
    It has taken us a while. We have had a big meeting a couple 
of months ago with the builders and again it is just that whole 
education. You know, people hear you and say, ``Yeah, yeah, 
yeah'' but it is those nontraditional players that do not quite 
understand it the impact it is going to have on their own 
individual businesses and their particular disciplines and 
issues.
    The Chairman. How about your Meals on Wheels programs? What 
do you think needs to be changed on the Federal level to make, 
whether it is a voucher-style system or something, how do we 
make that better? Isn't that a pretty central feature of 
services to seniors in terms of activity and nutrition?
    Ms. Woody. Oh, from so many different perspectives. Of 
course, we all know the impact of good nutrition on health and 
wellness. So it is a critical piece and it is very important 
that we have these programs in our communities.
    What we are seeing is that we have to be a lot more 
innovative in how we deliver that service. The restaurant 
voucher program is not going to be the answer for everybody but 
in some communities it is going to be a great opportunity.
    We have one of our other counties that has been doing what 
they call a wellness program and they have anywhere from 200 to 
250 folks in their congregate program, but they have infused 
physical activities, a lot of different program, a lot more 
variety. One of our other nutrition sites in North Carolina has 
a salad bar and their congregate nutrition site is more like a 
restaurant that the seniors come to at the senior center.
    So it is just like we were saying before. With the baby 
boomers variety is the spice of life and because we are going 
to have so many diverse people, we have to have different ways 
of addressing these issues.
    The Chairman. Well, your fame down there precedes you, 
praises for all the good work you are doing.
    Ms. Woody. Thank you so much.
    The Chairman. We thank you for all of that.
    To all of you, as you see ideas, as we take up the 
reauthorization of the Older Americans Act, if you have 
specific tweaks you need in the statutes, let us know. We are 
anxious to improve it.
    Pamela? Are there some seniors in San Diego?

STATEMENT OF PAMELA B. SMITH, DIRECTOR, AGING AND INDEPENDENCE 
           SERVICES, SAN DIEGO COUNTY, SAN DIEGO, CA

    Ms. Smith. There are. That weather attracts a lot of folks.
    As we consider what this country will look like with the 
aging of the population, I guess my message today is it really 
is not the bad news. It is the good news that we are all living 
longer. There can be no doubt of the many gifts that came out 
of the 20th Century and the wonders in medicine and 
communication and transportation. Truly the greatest gift is 
that the average American is going to have an additional 30 
years of life.
    While some folks always lived into old age, what we have 
done now is figure out how to get almost everyone into old age, 
but we just do not know what to do with everybody now that we 
have them there. I think that it is a very exciting 
opportunity. As you referenced, never before in the history of 
the world, really, have we had this many people with this much 
to offer. And the possibilities of harnessing this enormous 
talent for public good are really endless and exciting.
    At retirement, most folks want a break from that early 
alarm, the traffic, long work hours, but many wake up 6 months 
or a year after they do retire and think, ``Well, now what am I 
going to do for 20 to 30 years?'' The average American really 
will spend maybe 25 percent of their life in retirement, and 
that is a very new phenomenon. When you think about it, 
retirement itself is a new phenomenon. A hundred years ago when 
we lived mostly on the farm and in small towns, you did not 
wake up one day and draw a line in the sand and say, ``I'm not 
going to milk the cows anymore.'' You really stayed part of the 
farm, of the family, of the community, of your business and 
your role maybe changed, but you still were there.
    But that really has changed today and very rapidly. We are 
now mostly an urban society, mobile. The family often lives 
many miles away. We have long work hours now and hectic lives 
and then, for the most part, that just ends abruptly at 
retirement.
    Unfortunately, it is not as easy as you would think for 
people to be successful in this new phase of life. We really 
know that for vital aging we have to stay physically fit, we 
need to stay intellectually fit, but what we are really 
learning and what is maybe the most important is we have to 
continue to have meaning and purpose in life.
    Many older adults want to get involved in their community 
and when they do decide they want to, unfortunately they are 
often given meaningless tasks, as opposed to meaningful tasks. 
There is too much envelope-stuffing that is out there and part 
of it is our mental model. For some reason, you know, we are a 
youth-focussed society and older adults, we do not embrace the 
talents and the things that they bring to the table.
    But understandably, many do not stay long at the envelope-
stuffing job. They end up going home and sadly, many of them 
sit and watch too much television, become inactive, and start 
disappearing. Obesity, type 2 diabetes and depression are 
growing problems among the older adult population. Sadly, older 
adults are one of the segments of the population that has the 
highest suicide rate.
    I did a ride-along a few years ago with our public 
administrator's office and an elderly senior had passed away 
and no family or friends, so we stepped in to manage the 
estate. This woman had been dead for several days and her house 
was a filthy, cluttered mess, literally a rat's nest. Her last 
years had not been pleasant ones and it broke my heart to think 
that we had just lost her.
    What was additionally sad is as we were going through her 
papers, we discovered this woman had been a teacher. She had a 
tremendous amount to give; if we had stayed connected and 
valued her, think of the difference she could have made even in 
this phase in a child's life and in our community. It becomes 
both a taxpayer burden but, more importantly, a real human 
loss.
    No one wants to be put out to pasture but it is hard to 
stay excited about being physically active if you have no 
meaningful purpose. So we need to do better about how we are 
doing that, and that is what I want to mention, a few programs 
we are doing in San Diego County.
    We have about 3 million people, large urban area, small 
towns, rural, and we decided that if you look at maybe what is 
America's only growing natural resource, our older adults, we 
need to tap into that. One of the areas that we tapped into was 
the area of intergenerational, working with kids. We have a lot 
of single parents, we have families where mom and dad work 
multiple jobs, and consequently, less time to spend with their 
kids, yet we have all of these seniors that have the great gift 
of time to give.
    So one of our programs we did is we tapped seniors into 
helping our families come off of welfare, helping families. 
They mentored four to five families, mentored the whole family, 
came at this job with a passion, helped these families do the 
things that were critically important to not only get off of 
welfare but stay off of welfare, because many of them did not 
have a good support system to help them.
    We have a residential high school for foster kids in San 
Diego County, San Pasqual Academy. These are kids that are not 
going to be reunified with their family, they are not going to 
be adopted, they are bouncing around the system. So we created 
this high school to really help them get the high school 
diploma. Nationally, 50 percent of foster kids do not graduate 
from high school.
    After we were up and running a couple of years we moved 
older adults on campus. We took 10 houses and we offered them 
reduced rent in exchange for volunteering with the kids, and 
their job description was to ``care about these kids''. I will 
tell you it was like magic from day one. The relationships that 
were formed, they did all the things that caring, loving 
grandparents do in a child's life. They garden. They cook. They 
have poetry slams. We had an eight-man football team there, but 
now we have somebody on the sidelines to cheer for those kids.
    Our high school graduation rate at San Pasqual Academy is 
90 percent. Now as kids go off to college, those kids have gone 
off and when they have a holiday break, they come back and stay 
with the seniors because those are the relationships that they 
formed.
    Additionally, one of the programs that we did that has been 
very successful is First Five. In California we have a special 
tobacco tax that helps kids zero to five be school-ready. So we 
have many programs in our community that are working on that. 
Well, if you add seniors to the mix, and we did and for a small 
stipend, seniors come in and start working with these kids to 
help them be school-ready. What a perfect fit this was, this 
army of older adults out there who came in. We know the 
importance in early childhood development, brain development, 
of both nurturing but that brain development is there.
    We had a terrific outcome of the first year of how these 
kids exceeded all of the other kids in the programs in their 
behavioral skills, in their social skills, in their verbal 
skills. Teachers, 100 percent of teachers said these kids were 
more ready to learn, having to do with seniors, having seniors 
there.
    I have a picture up there I would like to leave with you, 
give you, and it is Grandpa Chuck, who is a retired State 
Department employee, who retired. Six months into retirement 
his wife says, ``You've got to get out of the house and go find 
something to do.'' He became one of our volunteers and this 
picture, as you can see, is worth 1,000 words. He tells me one 
of the greatest joys of his life is working with these kids 
that all come out of a domestic violence shelter and in 
transitional housing.
    As we start looking at this, and I think the issue here is 
it is not just nice and cute to have older adults be part of 
civic engagement; they can truly be part of our community and 
helping us solve critical community problems. We have moved 
their involvement with foster kids not just at San Pasqual now 
but out into our neighborhoods. They mentor foster kids. They 
support foster families. They liaison with foster families and 
schools to help kids do better. These programs have been 
amazingly successful.
    One last individual I would like to tell you about is at 
Helix High School, which is a big, comprehensive high school in 
San Diego County and they have 22 percent older adults in their 
community, which in my mind is a gold mine that you are living 
in the middle of. But the high school had never met the senior 
center a half a mile apart. You know, these parallel lines in 
our communities never crossed.
    As we got together and said what could we start doing, the 
senior center said, ``Well, Bill, World War II veteran who is 
twice widowed, no longer drives, is always looking for somebody 
to play chess. Would there be any high school kids that would 
want to play chess with Bill?''
    So what they decided is Bill would go down and they have a 
tutorial program for ninth-graders were all ninth-grade kids 
make sure they are current with their homework and up to date 
and up to speed. On the first day, as an incentive for those 
kids in finishing their homework, they could go play chess with 
Bill but the question was would anybody want to go play chess 
with this old guy? On the first day 50 kids scrambled to get 
their homework done to go out and play chess.
    Immediately Bill started going every day from 6:45 until 
noon. He played 12 games at a time in an old trailer out back, 
but he taught chess etiquette, he taught manners. It was 
another caring adult checking in with these kids. How are you 
doing? How is your life? They are checking in with Bill.
    Bill died recently but his last 2 years of life, as 
contrasted to the teacher that we found, were filled with joy 
and happiness. His son sent us a letter and I would just like 
to read a couple of sentences. The son lived out of town. ``Our 
father used to share his personal stories and experiences at 
Helix High, as well as his utter delight in forming and shaping 
the students through the game of chess. He was very proud of 
his students and the progress they were making in chess and in 
their lives.''
    We have a tremendous opportunity here if we can tap this 
enormous talent. Of course, everybody wins. The kids thrive, 
families thrive, but the seniors have a reason to get up. As 
one of the San Pasqual seniors told me, I have to be at my best 
because those kids need me. So it is an absolute win for all.
    In closing, the one last comment I would like to say is 
just that when the University of Utah did get to be the first 
nonBCS team to go to the BCS bowl, they took $17 million to the 
Mountain West Conference, so BYU got a share of that, which was 
about $1.5-2 million.
    The Chairman. That is the best thing we ever got out of 
Alex Smith. I will tell you that. He is a tremendous player and 
you are justly very proud of your son.
    Ms. Smith. Thank you for the opportunity to comment today.
    [The prepared statement of Ms. Smith follows:]
    [GRAPHIC] [TIFF OMITTED] 28923.380
    
    [GRAPHIC] [TIFF OMITTED] 28923.381
    
    [GRAPHIC] [TIFF OMITTED] 28923.382
    
    [GRAPHIC] [TIFF OMITTED] 28923.383
    
    [GRAPHIC] [TIFF OMITTED] 28923.384
    
    [GRAPHIC] [TIFF OMITTED] 28923.385
    
    The Chairman. Pamela, I have some questions for you but we 
have been joined by my colleague, Senator Carper of Delaware. 
He is formerly a great Governor of that State. I am sure he has 
all the answers.
    So why don't we turn to you for your statement or 
questions?
    Senator Carper. We are going to introduce our clean air 
bill that you and I have been discussing and we are going to 
have a press conference to announce it in 18 minutes. My staff 
said, ``You can go to the hearing and you can stay 5 minutes 
and then you need to come back.'' So I am going to slip out for 
a little bit but I will be back. I just want to thank our 
witnesses for being here and thank our chairman for convening 
us and again I would like to enter my statement for the record.
    The Chairman. You know, Pam, as I hear your stories about 
these individuals and you start putting names and faces on 
successes and tragedies, I think of the teacher you described 
who died alone and obviously not in a happy place. I do not 
want to in any way suggest that choice should not be central to 
a senior's retirement. They should be able to choose whether 
they want to do something or not. But hearing you describe the 
chess club and these other ideas, I guess it is really a 
question or comment to all of you.
    I wonder if much attention has been given to many of these 
programs for youth that could really benefit by the mentoring 
of retired teachers, retired professionals. I wonder if there 
has been any outreach to recruit scoutmasters for the Boy 
Scouts or den leaders for the Club Scouts or I do not know what 
the Girl Scouts call their leaders but Girl Scouts is a great 
program.
    My wife is involved in a program in Oregon called Smart and 
what it is is adults reading to children and helping them to 
get attached to books. I can think of 1,000 organizations that 
if senior programs could hook them up with these different 
youth things, it would just be a tremendous thing. I was a Boy 
Scout, so that comes to my mind as something that would be 
very, very helpful to that organization, to recruit great 
scoutmasters.
    I wonder if there is much outreach to the church 
communities, the various denominations. They all have great 
programs that involve people. Do you have any thoughts on that? 
Is there any organized way to get volunteer organizations 
together with seniors with tremendous talents and skills?
    Ms. Smith. Really what I think you are talking about is 
crossing those parallel lines and getting those sectors 
together and it used to happen a little more naturally in our 
communities in the way that we lived and I think now we have to 
jump-start it. I think you have hit on the very issue.
    What we have is this enormous talent and this tremendous 
gift of time that they have and they do want to be involved, 
but how do they connect? What I find in our community and I 
think is true of many is that entities deal with seniors or 
they deal with kids; they do not deal with both, and people 
just do not cross.
    That's why we try to tackle more serious issues, as opposed 
to lighter issues. It's not just gee, that is nice, but it is 
really critical, and we try to get as much publicity as 
possible. We try to talk about it as much as possible. Frankly, 
we really are trying to change the way people think because 
again, a lot of moms--back 20 or 40 years ago there were not as 
many working women, they were the volunteers in the schools and 
as we changed and more people are working and again single 
households, well, who can fill that void? Obviously older 
adults are a prime resource.
    So I think the outreach needs to be there. We have done a 
lot of brainstorming on how to do outreach. There are a lot of 
retired teachers associations, retired county employees that 
were social workers and things, and trying to highlight it.
    What we find is we are able to reach the individuals. The 
lag has been in the community, the structural lag in that they 
really are asking them to do meaningful things. Everybody looks 
at seniors and says oh, great, free help, but I will tell you 
they traditionally have given them the low-hanging fruit of the 
organization that people really do not want to do. If we can 
start changing that and showing the difference that they are 
making and highlight that and also, I think, find ways to help 
organizations.
    One of the things we did a few years ago was put out a 
request for proposal, $10,000 grants in our community to people 
that would start intergenerational programs, to organizations, 
and we were going to give five of those. We had so many 
beautiful requests come in that I went back to my peers in 
county government and said we have to fund more than that, and 
we were able to actually--that year we had more money than 
other years--fund 25 of them. These were wonderful programs, 
just like that, through every kind of ethnic group. We had 
Africa Corps and Jewish Family Services and Operation Samahan 
and all these programs that came.
    It is not rocket science to think we have to pull these two 
generations together but it is just not happening. A little bit 
of startup, a little bit of coordination really makes it 
happen.
    Helix High School now has an intergenerational coordinator. 
Once they saw the value of Bill and once those teachers saw 
that Bill coming on campus was helping kids stay connected and 
do better, they have an intergenerational coordinator now and 
they have seniors on campus teaching cooking and sewing and 
knitting and all kinds of programs to work with kids.
    The Chairman. I love the words intergenerational 
coordinator. I think we are going to need that. I wonder, is 
that something you think we ought to put in, incentivize in the 
Older Americans Act?
    Ms. Smith. I clearly think in updating the act for today's 
world and where we are and this potential, it could be huge if 
public policy could be out there and have that, incentivized in 
a way to tap into this.
    Again it is choice. It may not be for everyone, but I will 
tell you this. We have done a whole lot of programs along these 
veins and you think well, will seniors want to come and work? 
It is one thing about kids zero to five; they are kind of cute 
and cuddly. But how about teenage foster kids? They are not 
quite as cute; teenagers in general are not as cute.
    The Chairman. That is for sure.
    Ms. Smith. Every opportunity we have built, they have come. 
We have waiting lists for seniors to move to San Pasqual to 
work with these kids. We have waiting lists for seniors to 
participate in these programs.
    So if we could figure out a way to really--and we are 
seeing it being institutionalized. Our First Five, which has 
money coming in now, gives extra points for when they do 
requests for proposals, no matter what they are doing, even if 
it is helping families access health care or clean up the 
environment or whatever we are doing, extra credit is given 
with an intergenerational approach.
    So if you put it into your system and people are really 
thinking about attaching this and infusing it into the way you 
do business.
    I am a big believer that stipends are very powerful for 
attracting seniors, too. There is a cost of volunteering, 
literally getting there, gas, all of that. Some of our 
programs, we are able to put a little bit of stipend in. Any 
time you are working with kids you have to do background 
checks, you know, and somebody needs to coordinate it. But it 
is a very small investment for a huge return.
    Mr. Lane. If I may?
    The Chairman. Yes.
    Mr. Lane. Maybe I will start with a story because it is a 
personal story. My dad retired at age 67 from the Wharton 
School. He was a Wharton School graduate, businessman all his 
life and a very, very smart man. When he retired, of course he 
played golf and read books for 6 months, just like everybody 
else and then looked around. What am I going to do with my 
life? He wanted to give back to his community, so he looked 
around for those volunteer opportunities.
    He went to--well, I will not name the organization. He went 
to an organization and what they did was sit him outside a room 
and he took names for 3 or 4 hours every day. Well, a Wharton 
School graduate, they are only going to do that a few times. He 
spent the next 3 years the most unhappy years of his life and 
it was a very sad thing for our family.
    Finally, by luck basically, he hit on the county historical 
society, who was developing a museum. Well, here is a man with 
tremendous business skills who was, for the next 15 years, the 
business manager, if you will, for this initiative that created 
this wonderful, wonderful museum, and he was never happier. But 
there was no way for him to figure out where his talents could 
be used and what it was that created meaningful life for him. 
He had to kind of just luck into it after a very painful period 
of time.
    So I think it is not only readying institutions; it is also 
helping people who it is not immediately apparent to them where 
they want to engage. So I think that is part of it.
    I think there is one other part. It goes back to the 
Project 2015 initiative. That is engaging all sectors to look 
at themselves in the context of the changing environment 
because it becomes pretty apparent to those sectors how these 
resources can be used after they really engage and think about 
it.
    So it is not just intergenerational. It is about serving 
elders, elders serving elders. It is about a variety of 
opportunities that I think we can create if we do it 
thoughtfully and engage at various levels.
    Ms. Smith. Senator, could I add? Serving each generation, 
we have a program, part of the Older Americans Act caregiver 
money. We use a little bit of our local money and we pair a 
senior with a teenage foster youth in the community and each of 
them get a small stipend. What they do is go visit a frail 
elderly, giving that caregiver a break. In fact, this program 
is called the Breakers.
    So we have the senior who is more mobile and able to get 
out is mentoring this foster youth, encouraging them to think 
about a field, a career in health care, social work, or any of 
those, but they are doing community service and the target is 
we are really benefiting the caregiver, who gets a break, and 
they are visiting that person.
    So the same dollar that is coming down for a stipend is 
serving four, not to mention that the foster family is getting 
a bit of a respite by knowing that the foster youth is with a 
caring adult.
    The Chairman. Very good.
    Ms. Woody. We do need opportunities to educate our 
community. Just recently some of our ombudsmen went into a 
local high school to do a workshop and a class on older adults 
and at the end of that class, the youth had a different 
appreciation for what it meant to be an older person. I think 
we have to do some of that because there is some ageism going 
on in our country.
    The other thing that I think we have to do is generate new 
opportunities. It is just limited by our own creativity. You 
know, Pam has talked about a lot of different programs. Look at 
the planning initiative. In North Carolina we have a number of 
older adult volunteers who are doing walkability studies in 
their own communities to survey and evaluate where there are no 
appropriate walking opportunities, identify areas that are not 
quite safe and changes need to be made, there may need to be 
longer lights at crosswalks in order for pedestrians to 
actually walk across the street.
    There are just so many things but sometimes there need to 
be a few folks to help brainstorm some of these ideas and 
perhaps, as Pam said, open the doors to make some of these 
kinds of things happen, some of the things that you all were 
talking about in New York.
    The Chairman. It has been very, very helpful to me to hear 
these ideas. Again I would invite you to give us specific 
changes you would like to see in the Older Americans law 
because we are in a place where we will be making those changes 
and there is nothing like experience to tell us where we can do 
better.
    Pamela, what is the retirement age for an NFL football 
player?
    Ms. Smith. Well, that is a fairly short career, so you have 
to have something else. We hope it is quite long.
    The Chairman. Yes. Well, we hope he is a starter next year 
and----
    Ms. Smith. He is. He is the guy.
    The Chairman. We wish him every success.
    There is a vote scheduled for 11 and we have arrived at 
that hour. I suspect what has happened to Senator Kohl is he is 
very anxiously engaged in a pretty heated hearing and he would 
love to have been here. We will include his statement in the 
record and leave the record open in case he has any questions, 
which I believe he had for some of you.
    [The prepared statement of Senator Kohl follows:]

                Prepared Statement of Senator Herb Kohl

    Thank you, Mr. Chairman. Today's hearing is a fitting topic 
for Older Americans Month.
    We face an unprecedented tsunami of retirees. In 2011, the 
oldest of the approximately 77 million Baby Boomers will turn 
65, and by 2024, all Boomers will be over the age of 60. They 
are the largest, healthiest, most energetic and best educated 
generation in history.
    The Boomers are certain to redefine aging. And our nation's 
``aging network''--the people and organizations who provide 
support for seniors--must redefine themselves too.
    Boomers expect to make positive contributions to the nation 
and their communities. Many would like to continue working, 
either to stay active and productive or to save for a more 
secure retirement. That is why I introduced the Older Worker 
Opportunity Act, which makes it easier for older workers to 
stay on the job and continue to provide expertise to our 
nation's businesses.
    Other Boomers will look to mix work and leisure with 
community service. Older Americans bring a wealth of talent and 
experience to their communities, and many are eager to make a 
meaningful contribution. We look forward to hearing today about 
innovative ways Boomers are engaging in the community issues, 
and how the aging network is adapting to these new volunteers.
    Whether working, volunteering, or just relaxing, many of 
the coming retirees will rely on some services provided through 
the Older Americans Act. Scheduled for reauthorization this 
year, the OAA provides important services for seniors, 
including Meals on Wheels, elder abuse prevention, and 
caregiver support. The reauthorization will occur at the same 
time OAA programs are weakened by chronic under funding--a 
trend the President's budget would continue. The budget 
proposal actually cuts OAA programs at the Administration on 
Aging by $28 million.
    Older Americans Month is an excellent time to plan ahead 
for the changes the retiring Boomers will bring. Again, I thank 
you, Mr. Chairman, for holding this hearing, and I look forward 
to hearing from our witnesses.

    The Chairman. Senator Salazar, we were just closing up. 
Welcome. The stage is yours. We have just had some tremendous 
testimony, Senator, on what they are doing in New York and 
North Carolina and California on retirement activities and 
ideas for improving the Older Americans Act and we were just 
gaveling out but if you have a statement or a question for any 
of these folks, you are welcome.
    Senator Salazar. Mr. Chairman, thank you very much and 
thank you for holding this important hearing and continuing to 
lead this committee.
    I have a statement for the record that I will submit for 
the record.
    [The prepared statement of Senator Salazar follows:]

               Prepared Statement of Senator Ken Salazar

    I would like to thank Chairman Smith and Ranking Member 
Kohl for holding this important hearing.
    Today's hearing provides a wonderful opportunity for 
Members of this Committee to learn about the innovative 
strategies percolating throughout our country.
    While preparing for the demographic shifts is a formidable 
task, I am confident that states and local communities will 
find ways to both respond to our elder's unique needs and 
capitalize on their strengths and interest in giving back to 
their communities.
    There is a vibrant and dynamic aging network in Colorado 
comprised of the Colorado Commission on the Aging, 16 Area 
Agencies on Aging, our county departments of social services, 
dozens of community-based organizations, and other private 
industry partners.
    Many of these service providers have endured tough budget 
years. But they have survived and even thrived in the tight 
fiscal climate by developing effective and efficient programs 
that coordinate their services and build partnerships.
    While I applaud their efforts, I believe that the federal 
government cannot turn our back on our elders. This year, the 
Bush Administration has proposed cuts to critical funding for 
seniors' programs at the Administration on Aging.
    I hope that Congress can find a way to maintain funding for 
these important programs. Last month, I joined with Senators 
Collins and Clinton in a letter to the Senate Appropriations 
Committee urging the restoration of this critical funding.
    I am eager to hear from today's witnesses about the 
creative strategies employed in New York, North Carolina, and 
San Diego, It is my hope that we can use your ideas to 
strengthen the Older Americans Act during reauthorization.
    In particular, I am interested in hearing about how your 
communities have embraced the growing interest in civic 
engagement. As with previous generations, today's retirees have 
a wealth of experiences and skills that can benefit 
communities.
    Just last week I met with two wonderful Colorado Seniors, 
Moisey and Sofiya Sandler, who are giving back to the Denver 
community.
    Former professors at the University of Moscow, the Sandlers 
are volunteers with Senior Companion Program operated out of 
Seniors Inc. They use their knowledge of the Russian to 
translate for seniors who need help navigating the health care 
and social service system.
    They have also served as translators for large 
international conferences that have come to Colorado. Most 
notably, they assisted the Russian delegation that traveled to 
Denver for the Summit of the 8.
    The Sandlers are not alone. There are many seniors who have 
so much to offer their communities--as the Baby Boomers begin 
to retire, we will see a rise in seniors looking for service 
opportunities. Their volunteer work provides benefits 
communities and keeps them active and healthy. We must work to 
support and cultivate networks that are responding to their 
needs.
    Again, I thank the Chairman and Ranking member for holding 
this hearing.

    Senator Salazar. I will make two quick comments. One, the 
agencies that deal with the aging population in my state, there 
are 16 of those organizations and they do a tremendous job in 
Colorado. I have worked with them on issues ranging from 
financial exploitation of the elderly and preventing that 
financial exploitation from occurring to other kinds of social 
issues that our elderly are facing in their homes in our state 
and I very much appreciate the great work that those networks 
do on behalf of the citizens of my state.
    The second comment I would make is that it is obviously and 
I am sure it was described in your comments, a very big issue 
for our times because as this bulge of the baby boom population 
comes into senior status we are facing some enormous pressures 
and issues at the national level that we just need to be ahead 
of.
    So this hearing is a very timely and a very important one 
and I appreciate Senator Smith's leadership of this committee. 
I thank the witnesses for giving us your information on how we 
might be able to address some of the challenges that we face. 
Thank you very much.
    The Chairman. Again our thanks to you. You have added 
measurably to our Senate record and we will look forward to 
working with you. Remember, our doors are open and our minds 
are open and our hearts are certainly especially open to the 
causes that you are serving.
    Senator Salazar and I are part of the baby boom generation, 
so we are counting on you to be there for us.
    Thank you and with that, we are adjourned.
    [Whereupon, at 11 a.m., the committee was adjourned.]
                            A P P E N D I X

                              ----------                              


             Questions from Senator Kohl for Gayla S. Woody

    Question. What two or three ideas or changes do you think 
we should consider as we reauthorize the Older Americans Act?
    Answer. Provide funding for Area Agencies on Aging to do 
Community Planning.
    With my experiences in both Rowan and Mecklenburg Counties, 
I believe having time to work with my local counties will do 
several things:
    Enable us to have a comprehensive community Plan for all 
agencies to be involved.
    Help coordinate community efforts from various agencies 
toward implementation of the Plan.
    Position the community to leverage additional funds from 
grants and other sources in support of the coordinated 
community implementation of the Plan.
    Implement and Fund Aging and Disability Resource Centers.
    The single most often repeated complaint I hear from 
caregivers and consumers is: ``I don't know what services and 
resources are available''. In Mecklenburg County the children's 
network has successfully implemented a Child Resource Center 
that has provided a community visibility for children's 
services. That type of resource center for aging and disability 
would be very useful in helping older adults and their families 
coordinate their own services.
    Question. What perspective did the business community 
provide in your planning, and how do you think businesses will 
change to target this new market of senior consumers?
    Answer. In my early experiences with our planning and 
trying to target the business community, it was more from the 
perspective of what we can do for them rather than what they 
can do for us. Our key example is the work we are doing in the 
area of housing. We convened a large seminar with builders. 
What we have found is that many businesses have not yet 
realized the impact of aging on their business or that the Baby 
Boomers may well demand that they change the way they do 
business.
    One of the large tasks ahead of the Aging Network is to 
help bring Aging to the forefront for businesses. There are 
several areas of concern:
    Workforce. Have businesses considered the changing 
workforce? Have they considered how the retiring Baby Boomers 
will impact their business? Will they need to restructure jobs 
to allow for more part time work or job sharing? Will they need 
to find attractive ways to entice Baby Boomers with significant 
knowledge of their industry to stay involved in some way?
    Health Care. This is certainly a major issue for business. 
However, with individuals living longer and working longer, how 
will the whole health care environment change? Will companies 
be able to pay minimum wage if they simply provide health care? 
Or will Medicare for persons over 65 change the need for health 
care coverage provided by business?
    The Product. Depending on the product of the business, the 
Baby Boomers will have a variety of impacts. In our meeting 
with the Housing Industry, some of the implications are that 
Baby Boomers want more flexibility, more willing to downsize, 
want a home where they can Age in Place within walking distance 
of needed services, and universal design. In our southern 
communities, the suburbs have been the location for housing and 
the bigger the better. For seniors who could no longer maintain 
their home, there has been the move to the retirement 
communities. Baby Boomers don't necessarily seem inclined to 
move to retirement communities. We may see more NORCs or 
Naturally Occurring Residential Communities that consist of 
smaller, easy to maintain homes or condos in multi-use areas.
    In our community, we have found the most important first 
step is just to get businesses to recognize that the Age Wave 
is going to bring change to their business.
    Question. What other state and local sources of funding do 
you have and how can the federal government make more of an 
investment to leverage your other sources of funding?
    Answer. With both the Rowan and Mecklenburg planning 
initiatives, we have had no other funds to help with our 
process. In Mecklenburg we actually sold advertisements to 
businesses in order to generate funds to print our report. In 
Rowan, the hospital contributed funds to generate the report.
    Now that the first implementation strategies have been 
developed in both of these communities, they are looking for 
ways to implement the strategies. In this process with no 
funding, we are advocating for existing agencies to ``adopt'' 
some of our implementation strategies that fit within their 
Agency Mission. In Rowan we talked about how to activate groups 
of older adults to provide services through volunteer programs. 
Educating and advocating with local agencies and establishing 
volunteer programs take time and effort. For instance, in Rowan 
County one of the implementation strategies was to implement a 
county wide Information and Referral system that would operate 
24 hours a day and seven days a week. Because of our 
collaboration with the Rowan County United Way, they have taken 
on this strategy as a mission of their organization. They are 
using their resources and revenues to implement the 211 system, 
but we used our ``manpower'' to advocate for the need for this 
service and for United Way to take leadership on 
implementation.
    In Mecklenburg County, the Board of County Commissioners 
will include money in their 2007 budget for Status of Seniors. 
But the funds will be used for staff to apply for grants, 
educate the community about aging issues, and solicit 
businesses and organizations to work in partnership with the 
Status of Seniors initiative. It will not be specifically used 
to ``pay for'' implementation of a specific strategy. But the 
funds from the Commissioners will enable us to leverage other 
sources, businesses, and other organizations in order to 
achieve our various goals. This is the way I can see the 
federal government making a significant investment that would 
allow us to leverage other community resources and grants.
    For both the Rowan and Mecklenburg projects, I have been a 
key ``staffer'' pushing the initiative and providing the 
``glue'' to hold the projects together. But with my many other 
responsibilities, and two projects of this type, my ability to 
work on these projects has been limited and therefore our 
progress has been slow. I am proud to say these communities 
have moved forward relentlessly but the progress has been much 
slower than we hoped.
    Let me again thank you for the opportunity to share with 
you some of our experiences in North Carolina.
                                ------                                


            Questions from Senator Kohl for Pamela B. Smith

    Question. What two or three ideas or changes do you think 
we should consider as we reauthorize the Older Americans Act?
    Answer. Adding language and funding for Intergenerational 
Coordinators to the Older Americans Act, in particular to work 
with children in the Child Welfare System, would be an 
important step in placing emphasis on prevention--for both 
seniors and children. We know that both parties benefit--
studies show that children that come from dysfunctional 
families often can become successful adults if they have a 
caring adult in their life who doesn't want anything in return 
and seniors are healthier if they continue to have meaning and 
purpose in life.
    Allowing more flexibility in spending existing money in the 
Older Americans Act would be a huge benefit. It now comes so 
categorical it is difficult to be efficient or creative. We 
need more room to try new things as the boomers arrive--they 
are going to require us to be innovative.
    Of course, always the toughest issue is money. The funds 
from the Older Americans Act have simply not kept up with the 
growth of the aging population, nor increased costs to operate 
the program.
    Question. What advice do you have for social service 
organizations that are looking to utilize seniors as 
volunteers?
    Answer. The biggest mistake that organizations make is 
giving the menial jobs that no one else wants to the senior 
volunteers. Too many organizations have a ``one size fits all'' 
mentality when it comes to working with older adults. They use 
a generic volunteer job description rather than tailoring the 
talents of the senior to the needs of the organization. We have 
found much more success with working with the senior to find 
what talents, skills and experiences they bring to the table 
and match those to the needs of the organization.
    We have also found success in defining outcomes, not 
process, to the seniors. For instance, our senior mentors 
working with foster kids are told our goal is to help the kids 
graduate from high school. Then we ask how the senior can help 
us achieve that goal? Traditional volunteers are given a list 
of ``things'' to do--and usually not meaningful things. 
Personalizing the volunteer experience and valuing what the 
senior brings, along with valuing their opinion, is critically 
important.
    Question. What role do you believe the Federal government 
should play to best spur retiring boomers to service?
    Answer. Remove barriers and offer incentives:
    There are barriers that which need to be removed. Volunteer 
opportunities may offer small stipends to cover the cost of 
volunteering. Sometimes this is a small money amount (usually 
about $200 per month) or a card for gasoline and other 
transportation or even a grocery store voucher. But for many 
seniors who are on SSI, Section 8 Housing, Medicaid or some 
other government subsidized program, this stipend counts as 
income for their eligibility for those programs. The irony here 
is that these seniors often live in areas where we have the 
most needs, yet the local seniors often cannot participate for 
fear of losing their eligibility to these programs. There is 
language which authorizes the Foster Grandparent program 
(seniors volunteering with special need children) which 
excludes the small remuneration they receive from the program 
from countable income for other programs. Similar language is 
needed for seniors who receive any stipend related to working 
with children.
    Another way to encourage civic engagement (especially for 
seniors) volunteering with children in the child welfare 
system) would be to offer and incentive, such as a tax credit 
or other tax break. Small incentives go a long way to formalize 
and recognize the contribution that senior volunteers make.
    Thank you for this opportunity to testify.

                                 <all>

</pre></body></html>
